No. 20-843
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ROBERT NASH, BRANDON KOCH,
Petitioners,

-V-

KEVIN P. BRUEN, in His Official Capacity as Acting
Superintendent of New York State Police, RICHARD J.
MCNALLY, JR., in His Official Capacity as Justice of the
New York Supreme Court, Third Judicial District, and
Licensing Officer for Rensselaer County,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Association of New Jersey Rifle & Pistol Clubs, Inc. as Amicus Curiae in
Support of Petitioners contains 4,079 words, excluding the parts of the Brief
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 15, 2021.

/s/ Daniel L. Schmutter
Daniel L. Schmutter

